      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                        Washington, D.C. 20201




January 4, 2010

TO:           Charlene Frizzera
              Acting Administrator
              Centers for Medicare & Medicaid Services

              /John Hapchuk/ for
FROM:         Joseph E. Vengrin
              Deputy Inspector General for Audit Services


SUBJECT:      Review of Medicare Payments for Selected Durable Medical Equipment Claims
              With the KX Modifier for Calendar Year 2006 (A-04-08-04020)


Attached is an advance copy of our final report on Medicare payments for selected durable
medical equipment claims with the KX modifier for calendar year 2006. We will issue this
report to CIGNA Government Services (CGS), the durable medical equipment Medicare
administrative contractor (DME MAC) for Jurisdiction C, within 5 business days.

Pursuant to sections 1832(a)(1) and 1861(n) of the Social Security Act (the Act), Medicare
Part B provides for the coverage of durable medical equipment, prosthetics, orthotics, and
supplies (DMEPOS). As a result of the Medicare Prescription Drug, Improvement, and
Modernization Act of 2003, the Centers for Medicare & Medicaid Services (CMS) contracted
with four DME MACs to process and pay Medicare Part B claims for DMEPOS. These DME
MACs replaced the Durable Medical Equipment Regional Carriers. Also, CMS contracts with
Palmetto Governmental Benefits Administrators, LLC (Palmetto GBA), to serve as the National
Supplier Clearinghouse. The National Supplier Clearinghouse is responsible for enrolling and
reenrolling DMEPOS suppliers.

For certain DMEPOS, suppliers must use the KX modifier on filed claims. The KX modifier
indicates that the supplier has the required documentation on file. While suppliers must have a
written physician’s order and proof of delivery for all DMEPOS, suppliers must have additional
documentation on file for items requiring the KX modifier. For example, respiratory assist
devices also require documentation that a sleep study was performed before the date on the
physician’s order.

Our objective was to determine whether the KX modifier was effective in ensuring that suppliers
of DMEPOS who submitted claims to Palmetto GBA had the required supporting documentation
on file.
Page 2 – Charlene Frizzera



The KX modifier was not effective in ensuring that suppliers of DMEPOS who submitted claims
to Palmetto GBA had the required supporting documentation on file. Of the 100 items in our
sample, totaling $8,809, suppliers had the required documentation on file for 46. However,
suppliers did not have the required documentation on file for the remaining 54, totaling $4,574.
As a result, Palmetto GBA made unallowable payments totaling $4,574 for 54 of the 100
sampled items. Based on our sample, we estimated that Palmetto GBA paid approximately
$127 million to suppliers who did not have the required documentation on file to support the
DMEPOS items with calendar year 2006 dates of service.

The types of missing documentation included the following: proof of delivery (23 of 100 items),
physician’s order (20 of 100 items), use or compliant use follow-up documentation (19 of 72
applicable items), and physician’s statement (5 of 28 applicable items). For 10 of the 54 items,
suppliers were missing multiple required documents.

These errors occurred because Palmetto GBA’s electronic edits in place were not effective for
determining whether suppliers had the required documentation on file when they used the KX
modifier on claims. The edits could only determine whether the required KX modifier was on
the claim.

We recommend that CGS, as the current DME MAC, recover the $4,420 ($154 was repaid
during fieldwork) in payments for specific DMEPOS items claimed for which the suppliers did
not have the required documentation; review other payments for DMEPOS related to our
unallowable sample items and recover any additional unallowable payments; notify CMS of the
23 suppliers who did not meet the supplier standard for maintaining proof of delivery so CMS
can take appropriate action; and develop a corrective action plan to improve the effectiveness of
the KX modifier and potentially save an estimated $127 million.

In written comments to the draft report, CGS acknowledged the facts presented in the report and
described the actions it intends to take in response to our recommendations.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov
or Peter J. Barbera, Regional Inspector General for Audit Services, Region IV, at (404) 562-7800
or through email at Peter.Barbera@oig.hhs.gov. Please refer to report number A-04-08-04020.



Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                          Office of Audit Services, Region IV
                                                                          61 Forsyth Street, SW., Suite 3T41
                                                                          Atlanta, GA 30303




January 11, 2010

Ms. Jean Rush
President, CIGNA Government Services
2 Vantage Way
Nashville, Tennessee 37228

Dear Ms. Rush:

Enclosed is the Department of Health and Human Services (HHS), Office of Inspector General
(OIG), final report entitled “Review of Medicare Payments for Selected Durable Medical
Equipment Claims With the KX Modifier for Calendar Year 2006.” We will forward a copy of
this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(404) 562-7800, or contact Mark Wimple, Audit Manager, at (919) 790-2765, extension 24, or
through email at Mark.Wimple@oig.hhs.gov. Please refer to report number A-04-08-04020 in
all correspondence.

                                             Sincerely,



                                             /Peter J. Barbera/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Jean Rush


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




      REVIEW OF MEDICARE
     PAYMENTS FOR SELECTED
  DURABLE MEDICAL EQUIPMENT
CLAIMS WITH THE KX MODIFIER FOR
      CALENDAR YEAR 2006




                        Daniel R. Levinson
                         Inspector General

                          January 2010
                          A-04-08-04020
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to sections 1832(a)(1) and 1861(n) of the Social Security Act (the Act), Medicare Part
B provides for the coverage of durable medical equipment, prosthetics, orthotics, and supplies
(DMEPOS). As a result of the Medicare Prescription Drug, Improvement, and Modernization
Act of 2003, the Centers for Medicare & Medicaid Services (CMS) contracted with four durable
medical equipment Medicare administrative contractors (DME MAC) to process and pay
Medicare Part B claims for DMEPOS. These DME MACs replaced the Durable Medical
Equipment Regional Carriers (DMERC). Also, CMS contracts with Palmetto Governmental
Benefits Administrators, LLC (Palmetto GBA), to serve as the National Supplier Clearinghouse.
The National Supplier Clearinghouse is responsible for enrolling and reenrolling DMEPOS
suppliers.

Under the statutory and policy framework of the Act, the “Medicare National Coverage
Determinations Manual” defines DME as equipment that can withstand repeated use, serves a
medical purpose, is generally not useful to a person in the absence of illness or injury, and is
appropriate for use in a patient’s home. For certain DMEPOS, suppliers must use the KX
modifier on filed claims. The KX modifier indicates that the supplier has the required
documentation on file. While suppliers must have a written physician’s order and proof of
delivery for all DMEPOS, suppliers must have additional documentation on file for items
requiring the KX modifier. For example, respiratory assist devices also require documentation
that a sleep study was performed before the date on the physician’s order.

On January 16, 2007, CMS awarded the DME MAC contract for Jurisdiction C to CIGNA
Government Services (CGS). CGS assumed full responsibility for administering the DME MAC
work and began processing DMEPOS claims for Jurisdiction C as of June 1, 2007. Palmetto
GBA was the Region C DMERC and processed the DMEPOS claims through May 31, 2007.
(CMS refers to the DMERCs’ coverage areas as “regions” and the DME MACs’ coverage areas
as “jurisdictions.”)

Palmetto GBA processed approximately $4 billion in Medicare DMEPOS claims with calendar
year 2006 dates of service. This audit focused on $257,925,264 of Medicare paid claims
processed by Palmetto GBA for therapeutic shoes for diabetics, continuous positive airway
pressure systems, respiratory assist devices, and pressure reducing support surfaces (groups 1
and 2) that included the KX modifier.

OBJECTIVE

Our objective was to determine whether the KX modifier was effective in ensuring that suppliers
of DMEPOS who submitted claims to Palmetto GBA had the required supporting documentation
on file.




                                                 i
SUMMARY OF FINDINGS

The KX modifier was not effective in ensuring that suppliers of DMEPOS who submitted claims
to Palmetto GBA had the required supporting documentation on file. Of the 100 items in our
sample, totaling $8,809, suppliers had the required documentation on file for 46. However,
suppliers did not have the required documentation on file for the remaining 54, totaling $4,574.
As a result, Palmetto GBA made unallowable payments totaling $4,574 for 54 of the 100
sampled items. Based on our sample, we estimated that Palmetto GBA paid approximately
$127 million to suppliers who did not have the required documentation on file to support the
DMEPOS items with calendar year 2006 dates of service.

The types of missing documentation included:

      proof of delivery (23 of 100 items),

      physician’s order (20 of 100 items),

      use or compliant use follow-up documentation (19 of 72 applicable items), and

      physician’s statement (5 of 28 applicable items).

For 10 of the 54 items, suppliers were missing multiple required documents.

These errors occurred because Palmetto GBA’s electronic edits in place were not effective for
determining whether suppliers had the required documentation on file when they used the KX
modifier on claims. The edits could only determine whether the required KX modifier was on
the claim.

RECOMMENDATIONS

We recommend that CGS, as the current DME MAC:

      recover the $4,420 ($154 was repaid during fieldwork) in payments for specific
       DMEPOS items claimed for which the suppliers did not have the required
       documentation;

      review other payments for DMEPOS related to our unallowable sample items and recover
       any additional unallowable payments;

      notify CMS of the 23 suppliers who did not meet the supplier standard for maintaining
       proof of delivery so CMS can take appropriate action; and

      develop a corrective action plan to improve the effectiveness of the KX modifier and
       potentially save an estimated $127 million.



                                               ii
AUDITEE COMMENTS

In written comments to the draft report, CGS acknowledged the facts presented in the report and
listed actions it intends to take in response to our recommendations. CGS’s comments are
included in their entirety as Appendix D.




                                               iii
                                                  TABLE OF CONTENTS
                                                                                                                                     Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Contracts for Processing Medicare Durable Medical Equipment,
               Prosthetics, Orthotics, and Supplies Claims ......................................................1
              KX Modifier Used for Durable Medical Equipment, Prosthetics,
               Orthotics, and Supplies Claims Processing .......................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................3
               Objective ...............................................................................................................3
               Scope.....................................................................................................................3
               Methodology .........................................................................................................4

FINDINGS AND RECOMMENDATIONS .............................................................................5

          MISSING REQUIRED DOCUMENTATION.................................................................5
               Proof of Delivery ..................................................................................................5
               Physician’s Order..................................................................................................6
               Use or Compliant Use Follow-Up Documentation...............................................6
               Physician’s Statement ...........................................................................................7

          KX MODIFIER SYSTEM EDITS ...................................................................................7

          EFFECT OF UNALLOWABLE PAYMENTS................................................................7

          RECOMMENDATIONS..................................................................................................8

          AUDITEE COMMENTS..................................................................................................8

APPENDIXES

          A – SAMPLE DESIGN AND METHODOLOGY

          B – SAMPLE RESULTS AND ESTIMATES

          C – ERROR DETAILS

          D – AUDITEE COMMENTS




                                                                    iv
                                                 INTRODUCTION

BACKGROUND

The Medicare program, established by Title XVIII of the Social Security Act (the Act) in 1965
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Pursuant to sections 1832(a)(1) and 1861(n) of the Act,
Medicare Part B provides for the coverage of durable medical equipment, prosthetics, orthotics,
and supplies (DMEPOS).

As a result of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
CMS contracted with four durable medical equipment Medicare administrative contractors
(DME MAC) to process and pay Medicare Part B claims for DMEPOS. These DME MACs
replaced the Durable Medical Equipment Regional Carriers (DMERC). Also, CMS contracts
with Palmetto Governmental Benefits Administrators, LLC (Palmetto GBA), to serve as the
National Supplier Clearinghouse. The National Supplier Clearinghouse is responsible for
enrolling and reenrolling DMEPOS suppliers. CMS will revoke a supplier’s billing privileges if
it finds that the supplier does not meet the supplier standards (42 CFR § 424.57(c) and (d)). 1

Contracts for Processing Medicare Durable Medical Equipment, Prosthetics, Orthotics,
and Supplies Claims

On January 16, 2007, CMS awarded the DME MAC contract for Jurisdiction C to CIGNA
Government Services, LLC (CGS). CGS assumed full responsibility for administering the DME
MAC work and began processing DMEPOS claims for Jurisdiction C as of June 1, 2007. CGS
processes DMEPOS claims for Alabama, Arkansas, Colorado, Florida, Georgia, Louisiana,
Mississippi, New Mexico, North Carolina, Oklahoma, Puerto Rico, South Carolina, Tennessee,
Texas, U.S. Virgin Islands, Virginia, and West Virginia.

Palmetto GBA was the Region C DMERC and processed the DMEPOS claims through May 31,
2007. 2 Palmetto GBA transferred its DMEPOS files to CGS after CMS awarded CGS the DME
MAC contract for Jurisdiction C.




1
    Federal requirements referenced in this document are the ones that were in effect during our audit period.
2
 CMS refers to the DMERCs’ coverage areas as “regions” and the DME MACs’ coverage areas as “jurisdictions.”
The Region C DMERC’s coverage area also included Kentucky but did not include Virginia or West Virginia.


                                                             1
KX Modifier Used for Durable Medical Equipment, Prosthetics, Orthotics, and Supplies
Claims Processing

National Coverage Determinations (NCD) describe the circumstances for Medicare coverage
nationwide for specific medical service procedures or devices, including DMEPOS, and
generally outline the conditions under which a service or device is considered covered. The
“Medicare National Coverage Determinations Manual” (Pub. No. 100-03, chapter 1, section
280.1) defines DMEPOS as equipment that can withstand repeated use, serves a medical
purpose, is generally not useful to a person in the absence of illness or injury, and is appropriate
for use in a patient’s home.

Contractors develop Local Coverage Determinations (LCD) for some covered DMEPOS items.
LCDs specify under what clinical circumstances the DMEPOS item is considered to be
reasonable and necessary. For covered DMEPOS items (including therapeutic shoes for
diabetics (therapeutic shoes), continuous positive airway pressure systems (CPAP), respiratory
assist devices (RAD), and pressure reducing support surfaces (groups 1 and 2) (PRSS) 3 ), the
LCDs require a KX modifier be added to the claims before they can be paid. By adding the KX
modifier, the supplier attests that the specific required documentation, which varies based on the
DMEPOS item, is on file at the supplier before submitting the claim to the DME MAC. This
documentation requirement includes the written physician’s order and proof of delivery that are
required for all DMEPOS, as well as additional documentation such as a sleep study for a RAD
claim.

Through LCDs and Internet postings, the contractors instructed the suppliers to use the KX
modifier only if the suppliers have the required documentation on file. However, if the KX
modifier is not used with claims for DMEPOS that require it, the claims will be denied.

This audit focused on claims paid by Palmetto GBA for therapeutic shoes, CPAPs, RADs, and
PRSS.




3
 These DMEPOS are included in the Level II Healthcare Common Procedure Coding System, which is a
comprehensive, standardized system that classifies similar medical products into categories for efficient claims
processing. It is the standardized coding system used for describing, identifying, and preparing claims for
DMEPOS.

                                                          2
  Documentation Requirements for Selected Durable Medical Equipment, Prosthetics,
                Orthotics, and Supplies Requiring the KX Modifier
 Documentation
 Required To Be
   on File at                               Therapeutic
    Supplier          Required by               Shoes         CPAP      RAD PRSS

                     -“Program Integrity
                       Manual” (PIM),
                                                        X                X          X        X
Physician’s Order      Pub. No. 100-08,
(written, signed,      chapter 5
and dated)           -LCD
                     -42 CFR § 424.57(c)(12)
                                                        X                X          X        X
Proof of Delivery    -PIM, chapter 4
Statement of
Treating/ Ordering   -The Act, § 1861(s)(12)
                                                        X                                    X
Physician Before      (A-C)
Delivery             -LCD
Polysomnography
(sleep study)
                                                                         X          X
Before Physician’s   -NCD
Order                -LCD
Use or Compliant
Use Follow-up
Statement of                                                             X          X
Physician and/or
Beneficiary          -LCD


OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the KX modifier was effective in ensuring that suppliers
of DMEPOS who submitted claims to Palmetto GBA had the required supporting documentation
on file.

Scope

Palmetto GBA processed approximately $4 billion in Medicare DMEPOS claims with calendar
year 2006 dates of service. This audit focused on $257,925,264 of Medicare paid claims for
therapeutic shoes, CPAPs, RADs, and PRSS that included the KX modifier. The Region C
DMERC (Palmetto GBA) processed the claims. However, in connection with the transition to




                                               3
DME MACs, the DMERC transferred its workload to the current Jurisdiction C DME MAC
(CGS). 4

We limited our review of internal controls to gaining an understanding of the contractors’
processing of selected DMEPOS claims that were submitted with the KX modifier.

From December 2007 through October 2008, we conducted fieldwork at CGS offices in
Nashville, Tennessee; at the National Supplier Clearinghouse offices in Columbia, South
Carolina; and at supplier offices in 14 States and Puerto Rico.

Methodology

To accomplish our audit objective, we:

           reviewed applicable Federal laws, regulations, and guidance;

           interviewed CGS officials concerning the manual and electronic claims processing
            procedures for claims for therapeutic shoes, CPAPs, RADs, and PRSS with the KX
            modifier and CGS’s and Palmetto GBA’s edits in the claims processing system to ensure
            that claims were adjudicated;

           interviewed CGS officials concerning the education and training specific to the KX
            modifier that CGS and Palmetto GBA provided to the suppliers of therapeutic shoes,
            CPAPs, RADs, and PRSS;

           selected a simple random sample of 100 items from four categories of DMEPOS
            (Appendix A);

           made unannounced visits to the 94 suppliers 5 to obtain their documentation supporting
            the use of the KX modifier;

           reviewed the suppliers’ applications and/or renewals to dispense DMEPOS;

           reviewed the suppliers’ documentation for the sample items to determine whether it met
            the requirements for using the KX modifier; and

           requested CGS’s medical review staff review the documentation provided by the
            suppliers for those sample items that we determined did not meet the documentation
            requirements for use of the KX modifier.

4
 Kentucky was part of the Region C DMERC’s coverage area. However, CMS made certain coverage area
realignments during the transition to DME MACs, including making Kentucky part of DME MAC Jurisdiction B.
Thus, according to CMS’s DME MAC Workload Implementation Handbook, the DMERC should have transferred
the Kentucky workload to the Jurisdiction B DME MAC.
5
    Six of the ninety-four suppliers had two items in the sample.


                                                             4
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                 FINDINGS AND RECOMMENDATIONS

The KX modifier was not effective in ensuring that suppliers of DMEPOS who submitted claims
to Palmetto GBA had the required supporting documentation on file. Of the 100 sampled items,
suppliers had the required documentation on file for 46 items. 6 Suppliers did not have the
required documentation on file for the remaining 54 items. As a result, Palmetto GBA made
unallowable payments totaling $4,574 for 54 of the 100 sampled items. Based on our sample,
we estimated that Medicare paid approximately $127 million to suppliers who did not have the
required documentation on file to support the DMEPOS items with 2006 dates of service.

The types of missing documentation included:

           proof of delivery (23 of 100 items),

           physician’s order (20 of 100 items),

           use or compliant use follow-up documentation (19 of 72 applicable items), and

           physician’s statement (5 of 28 applicable items). 7

Additional details on the results of the sampled items are provided in Appendixes B and C.

These errors occurred because Palmetto GBA’s electronic edits in place were not effective for
determining whether suppliers had the required documentation on file when they used the KX
modifier on claims. The edits could only determine whether the required KX modifier was on
the claim.

MISSING REQUIRED DOCUMENTATION

Proof of Delivery

Pursuant to the supplier standard (42 CFR § 424.57(c)(12)), the supplier “[m]ust be responsible
for the delivery of Medicare covered items to beneficiaries and maintain proof of delivery.”
Also, the PIM, chapter 4, section 4.26, requires suppliers to maintain proof of delivery
documentation in their files for 7 years. Section 4.26.1 outlines proof of delivery requirements
for different methods of delivery. Section 4.26 also states that, for “any services, which do not

6
    Five of these forty-six sampled items were from suppliers who were no longer active.
7
    For 10 of the 54 sampled items, suppliers were missing multiple required documents.


                                                           5
have proof of delivery from the supplier, such claimed items and services shall be denied and
overpayments recovered.”

For 23 of the 100 items, suppliers did not have proof of delivery documentation on file to support
billing for the DMEPOS. In all 23 instances, at least one of the following deficiencies occurred:
the delivery ticket was missing, the delivery ticket was not signed and dated by the beneficiary or
his or her designee, or the documentation for shipped items such as tracking numbers or the
supplier’s invoice was missing.

Physician’s Order

The PIM, chapter 5, section 5.1.1, 8 states that all DMEPOS suppliers are required to keep on file
a physician’s order. The treating physician must sign and date the order. Section 5.1.1.2 9 states
that if the supplier does not have a written order signed and dated by the treating physician
before billing Medicare, the item will be denied.

For 20 of the 100 items, suppliers did not have a physician’s order on file to support billing for
the DMEPOS. In all 20 instances, at least one of the following deficiencies occurred: the order
was missing, the order was not signed and dated by the physician, or the DMEPOS item was not
listed on the order.

Use or Compliant Use Follow-Up Documentation

The LCDs for the CPAP, effective January 1 and March 1, 2006, and the LCDs for the RAD
effective January 1, March 1, and April 1, 2006, state that, for an E0601 (CPAP) and an E0470
(RAD) to be covered beyond the first 3 months of therapy, the supplier must ascertain no sooner
than the 61st day after initiating therapy that the CPAP is being used and that the RAD is being
compliantly used. For the CPAP, either the beneficiary or the treating physician must confirm
that the beneficiary is continuing to use the CPAP, and the supplier must maintain
documentation that the requirement has been met. For the RAD, the supplier must obtain signed
statements from both the treating physician and the beneficiary stating that the RAD is being
compliantly used. 10 The LCDs state that continued coverage of the device will be denied if the
requirements are not met.

For 19 of the 72 applicable items in our sample, suppliers did not have the use or compliant use
follow-up documentation on file to support billing for the DMEPOS. In all 19 instances, at least
one of the following deficiencies occurred: the use or compliant use follow-up documentation
was missing, the use or compliant use follow-up was done within 60 days after initiating therapy,
the statement(s) required to be completed by the treating physician and/or the beneficiary were



8
    Section 5.2.1 in the October 1, 2006, revision.
9
    Section 5.2.3 in the October 1, 2006, revision.
10
     The LCD defines “compliantly used” for a RAD as an average usage of 4 hours out of 24 hours.


                                                          6
missing for the RAD, or the item was billed after the first 3 months but before the supplier
obtained use or compliant use follow-up documentation.

Physician’s Statement

Pursuant to the Act, § 1861(s)(12)(A), the physician must certify that the patient meets specific
criteria for therapeutic shoes. The LCD for therapeutic shoes, effective January 1 and March 1,
2006, and the LCDs, effective October 1, 2005, and March 1, 2006, for PRSS state that
DMEPOS items are covered if the supplier obtains a signed and dated statement from the
certifying or treating physician 11 saying the patient meets specific criteria. The physician’s
statement must be signed and dated some time during the year before the date of service for
therapeutic shoes. The LCDs state that the item will be denied if the requirements are not met.

For 5 of the 28 items in our sample requiring a physician’s statement, suppliers did not have the
physicians’ statements on file to support billing for the DMEPOS. In all five instances, at least
one of the following deficiencies occurred: the physician’s statement of medical need was
missing, was incomplete, or was not timely.

KX MODIFIER SYSTEM EDITS

The LCDs require DMEPOS suppliers to include the KX modifier on claims submitted for
therapeutic shoes, CPAPs, RADs, and PRSS when the “specific required documentation is on
file.” Use of the KX modifier constitutes a statement that the suppliers have the documentation
on file that the policy requires for the particular item or service.

Palmetto GBA established electronic edits to evaluate the claims submitted by the DMEPOS
suppliers. However, the edits were not effective for determining whether suppliers had the
required documentation on file when they used the KX modifier on claims. The edits could only
determine whether the required KX modifier was on the claim.

EFFECT OF UNALLOWABLE PAYMENTS

For 54 of the 100 items in our sample, suppliers who did not have the required documentation on
file to support their use of the KX modifier received $4,574 in payments. Based on our sample,
we estimated that Palmetto GBA paid approximately $127 million in unallowable Medicare
payments to DMEPOS suppliers with 2006 dates of service.

Before we completed our fieldwork, 1 of the 54 suppliers voluntarily repaid $154 for one of the
sampled items.




11
 The certifying or treating physician is the physician who treats the underlying condition that requires the use of the
DMEPOS.

                                                           7
RECOMMENDATIONS

We recommend that CGS, as the current DME MAC:

      recover the $4,420 in payments for specific DMEPOS items claimed for which the
       suppliers did not have the required documentation;

      review other payments for DMEPOS related to our unallowable sample items and recover
       any additional unallowable payments;

      notify CMS of the 23 suppliers who did not meet the supplier standard for maintaining
       proof of delivery so CMS can take appropriate action; and

      develop a corrective action plan to improve the effectiveness of the KX modifier and
       potentially save an estimated $127 million.

AUDITEE COMMENTS

In written comments to the draft report, CGS acknowledged the facts presented in the report and
described actions it intends to take in response to our recommendations.

CGS’s comments are included in their entirety as Appendix D.




                                               8
APPENDIXES
                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

Population

The population consisted of durable medical equipment, prosthetics, orthotics, and supplies
(DMEPOS) items for the year ending December 31, 2006, that DMEPOS suppliers claimed for
payment using the KX modifier under Medicare Part B.

Sampling Frame

The sampling frame consisted of 2,775,403 items totaling $257,925,264 for the year ending
December 31, 2006. These items were for specific categories of DMEPOS (therapeutic shoes for
diabetics, continuous positive airway pressure systems, respiratory assist devices, and pressure
reducing support surfaces (groups 1 and 2)) claimed for payment using the KX modifier under
Medicare Part B.

Sample Unit

The sample unit was a line item payment made to a DMEPOS supplier, based on the use of the
KX modifier, for DMEPOS in one of the categories above.

Sample Design

We used a simple random sample.

Sample Size

We selected a sample of 100 DMEPOS line items.

Source of Random Numbers

We generated the random numbers with the Office of the Inspector General (OIG), Office of
Audit Services (OAS), statistical software.

Estimation Methodology

We used OIG/OAS statistical software to estimate the amount of unallowable payments and
potentially unallowable payments.
                 APPENDIX B: SAMPLE RESULTS AND ESTIMATES

SAMPLE RESULTS

                                                           Number With    Value of
 Frame                         Sample        Value of      Unallowable   Unallowable
   Size      Frame Value        Size         Sample         Payments      Payments
2,775,403    $257,925,264        100          $8,809           54          $4,574



ESTIMATES OF UNALLOWABLE PAYMENTS
(Limits Calculated for a 90-Percent Confidence Interval)

                                             Total Estimated
                                           Unallowable Payments
                            Point estimate    $126,938,885
                            Lower limit          96,770,147
                            Upper limit         157,107,622
                                                             APPENDIX C: ERROR DETAILS


                                                             DMEPOS         T otal                        Number of Errors                          Line Items
                     TYPES OF                                 Required        In                                                                    with Only
             MISSING DOCUMENTATION                               Fa,        Sample       Total        CPAP         TS'            RAD 
      PRSS   One Error 

Proof of Delivery                                                All          100                23       15                  7       1
        0              15 

Physician's Prescription/Order                                   All          100                20           9               9       2
        0              12 

Use or Compliant Use Follow-up Documentation                CPAP, RAD         72                 19       12                  0       7
        0              15 

Physician's Certitying Statement                              TS, PRSS        28                  5           0               4       0
        1                2


    Total Errors (Duplicated Count)                                                              .7       3.                 20       10 
      1              44 





                 CATEGORIES OFDME                              Dollars      Items    Items            Items        Dollars         1
       2           3             Multiple 

                                                               Tested       Tested Allowed        t Errors        in Error        Error 
 Errors      Errors          Errors ::: 

Continuous Positive AiIWay Pressure Systems                     $3,486.72           58           29       29       $1,648.44          24 
      3                2             5

Therapeutic Shoes for Diabetics                                  2,625.26           26           11       15        1,547.02          11 
      3                1             4

Respiratory Assist Devices                                       1,872.87           14            5           9       971.09           8
       1                0             1

Pressure Reducing Support Surfaces (groups 1 and 2)                824.21            2            1           1       407.16           1
       0                0             0


    Totals                                                      $8,809.06       100              4.       54       $4,573.71          44 
      7                3            10 



* Therapeutic shoes are a one-time purchase. 

t   Five of these forty-six sampled items were for suppliers who were no longer active and were considered non-errors. 

t Ten of the fifty-four ooallowable sampled items had multiple errors. 


DMEPOS = durable medical equipment, prosthetics , orthotics, and supplies
CPAP = continuous positive airway pressure systems
TS = therapeutic shoes for diabetics
RAD = respiratory assist devices
PRSS = pressure reducing support surfaces (groups 1 and 2)
                                       APPENDIX D: AUDITEE COMMENTS 

Jean Rush
President




November 17, 2009 	                                                                                                           CIGNA Government
                                                                                                                              Services
                                                                                                                               Two Vantage Way
                                                                                                                               Nashville, TN 37228
                                                                                                                               Telephone 615.252. 3657
                                                                                                                               Facsimile 615.782.4695
Peter J. Barbera                                                                                                               Jean.Rush@CIGNA.com
Regional Inspector General for Audit Services
DHHS/OIG/OAS/Region IV
61 Forsyth Street, S.W., Ste. 3T41
Atlanta, GA 30303

Dear Mr. Barbera,

On October 21,2009, CIGNA Government Services (CGS) received Draft Report A-04-08­
04020: "Review of Medicare Payments for Selected Durable Medical Equipment Claims With
the KX Modifier for Calendar Year 2006." CGS has reviewed the report and acknowledges
the facts presented in the report. CGS will take the following actions in response to the
recommendations:

      • 	 Adjust the identified proVider claims with insufficient documentation and begin
          recovery efforts for the $4,420 in identified overpayments.
      • 	 Review the unallowable sample items to determine if additional overpayments can be
          identified and recovered.
      • 	 Report to the appropriate CMS staff, as well as the National Supplier Clearinghouse
          Medicare Administrative Contractor (NSC-MAC), the suppliers identified who
          violated the supplier standards for maintaining proof of delivery.
      • 	 Partner with CMS on the effectiveness of the KX modifier and take appropriate
          actions to protect the Medicare Trust Fund

In addition, CGS has provided training on the use if the KX modifier through onsite
workshops, individual education, teleconferences, webinars, and online education, since
assuming the DME MAC Jurisdiction C contract in 2007. CGS will continue to include the
KX modifier in its future supplier training.

If you have any questions or additional requests related to this review, please contact
Jennifer Ullig, Compliance Senior Specialist at 615-252-6532.

Sincerely,

                                       \ 	<2v-c3--
                                                                                                                               RECEIVl:D
Jean Rush                                                                                                                           NOV 19 2009
President
CIGNA Government Services
                                                                                                                        Office of Audit Svcs.
                                                                                                                                                              CAIS/
                                                                                                                                                  amru(fJt'IIOJICAM·MltJlC:NDSRYICESI
An affiliate of Connecticut General Life Insuran ce Company Part B &. DME Contracted Carrier for the Centers for Medicare &. Medicaid Services.
